a

C@OCKLE

2311 Douglas Street Le ga | Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Fst.1923 contact@cocklelegalbriefs.com
Pst. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriets.com

Fax: (402) 342-4850 No. 20-1472

BOECHLER, P.C.,
Petitioner,
Vv.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of May, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CENTER FOR TAXPAYER RIGHTS AS
AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
PROFESSOR T. KEITH FOGG CARLTON M. SMITH, ESQ.
DIRECTOR, TAX CLINIC OF THE (Counsel of Record)
LEGAL SERVICES CENTER OF 255 W. 23rd Street,
HARVARD LAW SCHOOL Apt. 4AW
122 Boylston Street New York, New York 10011
Jamaica Plain, Massachusetts (646) 230-1776
02130 carltonsmth@aol.com
(617) 390-2532
kfogg@law.harvard.edu

Subscribed and sworn to before me this 18th day of May, 2021
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY State of Nebraska
i RENEE J. @OSS
if My Comm. Exp. September 6, 2023

  

       

Notary Public Affiant
 

Attorneys for Petitioner

Melissa Arbus Sherry Latham & Watkins LLP 202-637-3386
Counsel! of Record 555 Eleventh Street, NW
Suite 1000

Washington, DC 20004

melissa.sherry@lw.com

Party name: Boechler, P.C.

 

 

Attorneys for Respondent

Elizabeth B. Prelogar Acting Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Commissioner of Internal Revenue

 

 
